OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ANGOLA’S
HIV/AIDS ACTIVITIES
AUDIT REPORT NO. 4-654-13-006-P
MARCH 5, 2013




PRETORIA, SOUTH AFRICA

Office of Inspector General


March 5, 2013

MEMORANDUM

TO:                  USAID/Angola Mission Director, Teresa McGhie

FROM:                Regional Inspector General/Pretoria, Robert W. Mason /s/

SUBJECT:             Audit of USAID/Angola’s HIV/AIDS Activities (Report No. 4-654-13-006-P)

This memorandum transmits our final report on the subject audit. We have considered carefully
your comments on the draft report and have included them in their entirety in Appendix II.

The report includes 14 recommendations to strengthen USAID/Angola’s HIV/AIDS activities.
We acknowledge management decisions on Recommendations 1 through 6, 8, 9,
and 11 through 14, and final action on Recommendation 12. In accordance with ADS 595.3.1.2,
management decisions on Recommendations 7 and 10 cannot be reached until the agreement
officer specifies the amount of questioned costs (currently $367,848 ineligible) allowed and/or
disallowed and sets a target date for collection of any disallowed costs. We disagreed with the
management decision for Recommendation 5 because it did not address training for
implementing partners. For further details, please see page 19.

Please have the responsible official provide us with written notice within 30 days on actions
planned or taken regarding Recommendations 7 and 10. If you choose to revise your proposed
actions for Recommendation 5, please also advise us of this in writing. Finally, please provide
the Audit Performance and Compliance Division in the USAID Office of the Chief Financial
Officer with the necessary documentation to achieve final action on Recommendations 1, 2, 3,
4, 5 (if you choose not to revise), 6, 8, 9, 11, 13, and 14. Recommendation 12 is closed upon
report issuance.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5, 0181
Pretoria, South Africa
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 6 


     Key HIV/AIDS Activities Were Not on Track to Achieve Main Goals ...................................... 6 


     USAID/Angola Did Not Implement Performance Management Processes Adequately .......... 9 


     USAID and Population Services International Processes for Use and Management of 

     Program Income Were Unclear............................................................................................. 11 


     USAID/Angola Did Not Facilitate Program Coordination ...................................................... 14 


     Population Services International’s Advocacy Work Had Not Progressed as Planned ........ 15 


     Angolans Lacked Awareness of USAID’s Sponsorship ........................................................ 16 


Evaluation of Management Comments................................................................................... 19 


Appendix I—Scope and Methodology .................................................................................... 22 


Appendix II—Management Comments ................................................................................... 25 


Appendix III—Results of Selected HIV/AIDS Performance Indicators ................................. 33 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
ADRA            Action for Rural Development and the Environment
CDC             Centers for Disease Control and Prevention
CFR             Code of Federal Regulations
FY              fiscal year
OGAC            Office of the U.S. Global AIDS Coordinator
PEPFAR          President’s Emergency Plan for AIDS Relief
PSI             Population Services International
RIG             Regional Inspector General
SUMMARY OF RESULTS 

Angola’s decades of civil war ended in 2002, leaving the country with few health facilities and
not enough trained doctors and nurses. While recent economic growth has expanded medical
services, many health-care workers still are poorly trained, threatening the country’s response to
HIV. Although Angola’s HIV prevalence rate1 of 2 percent is much lower than others in the
region—Zambia’s rate is 13.5, Namibia’s is 13.1, and Botswana’s is 24.8—HIV could spread
because Angola’s borders are more open since the end of conflict. Provinces transected by the
heavily traveled transportation corridor that connects Luanda, the country’s capital, with
Namibian markets are especially vulnerable.

USAID/Angola worked with the Angolan Government to formulate a national HIV/AIDS strategy
to address U.S. Government priorities and Angolans’ HIV/AIDS needs. The strategy focuses on
strengthening health systems, changing behaviors to help prevent HIV infection, and improving
data needed to support decision making in the health sector.

To help achieve these goals, USAID/Angola undertook several HIV/AIDS programs. It received
a total of $20 million in funding from the President’s Emergency Plan for AIDS Relief (PEPFAR)
in fiscal years (FYs) 2011 and 2012 to implement the programs.2 The audit reviewed four of
them, described below, representing total awards of $61.4 million. As of June 30, 2012,
obligations for these four programs totaled $14.6 million, and expenditures totaled $11.4 million.

                                Audited Programs as of June 30, 2012
    Name and
                            Budget                     P
                                                       	 urpose                     Dates        Partner(s)
  Type of Award
Strengthening
                       $33 million;        Strengthening health systems 	                       Jhpiego, an
Angolan Systems
                       obligations of      and increasing the availability and 	                affiliate of
for Health 	                                                                     10/1/2011-
                       $4.3 million and    use of high-quality health-care 	                    Johns
(ForçaSaùde)	                                                                    9/30/2016
                       expenditures of     services and commodities. 	                          Hopkins
cooperative
                       $3.2 million 	                                                           University
agreement
                    $19.5 million;
Integrated Health 	                        Improving access to, demand for,                     Population
                    obligations of
Social Marketing	                          and use of essential health           10/1/2011-     Services
                    $3.2 million and
cooperative 	                              commodities, including condoms,       9/30/2016      International
                    expenditures of
agreement 	                                through social marketing.                            (PSI)
                    $2.6 million
                    $5.6 million;
                                           Reducing risky sexual practices of
PROACTIVO	          obligations of
                                           groups most at risk for contracting   10/1/2010-
cooperative         $3.8 million and 	                                                          PSI
                                           HIV, such as sex workers, their       9/30/2013
agreement 	         expenditures of
                                           clients, and truck drivers.
                    $2.8 million
                    $3.3 million;                                                               World
Kapelako Project obligations of            Strengthening community-based                        Learning,
                                                                                 11/1/2010-
cooperative 	       $3.3 million and       HIV prevention in the general                        with PSI as
                                                                                 9/30/2012
agreement 	         expenditures of        population, focusing on youth.                       technical
                    $2.8 million                                                                lead


1
    The prevalence rate refers to the percentage of people tested who were infected with HIV.
2
    PEPFAR is a U.S. Government initiative to combat HIV and AIDS around the world.



                                                                                                              1
Strengthening Angolan Systems for Health (ForçaSaùde). Known by its Portuguese name,
ForçaSaùde has focused on training nurses to provide HIV counseling, testing, and follow-up
services that only doctors had provided previously. This is important because Angola has only
one doctor per 10,000 people, and the Government of Angola specifically requested this
training. Jhpiego implements ForçaSaùde in two of Angola’s most populous provinces, Luanda
and Huambo (Figure 1).

                                   Figure 1. Map of Angola




                     Source: Office of the United Nations High Commissioner
                     for Refugees (www.unhcr.org).

Integrated Health Social Marketing. Social marketing refers to the use of commercial
marketing and sales techniques to change or encourage targeted behaviors, like increasing
condom use to prevent HIV transmission. For this program, PSI markets two brands of
condoms, Legal and Sensual, through wholesalers to traditional outlets, such as pharmacies
and shops, and directly to high-risk outlets such as bars and nightclubs. The program continues
work that has been ongoing since 2000.

PROACTIVO. The program is designed to prevent HIV transmission among groups that are
most at risk. Program activities include promoting safe sexual behavior, demonstrating correct
condom use, distributing free condoms, referring clients for HIV counseling and testing, and
advocating for laws and policies to reduce discrimination. PSI implements these activities in
Luanda and Cunene Provinces, while four local subpartners provide support in Luanda, Huila,
Huambo, and Benguela Provinces. PSI also has a subagreement with a fifth local organization



                                                                                             2
for advocacy work in Luanda; however, PSI recently terminated its subagreement with a
sixth local organization that was responsible for leading these advocacy efforts.

Kapelako Project. The mission intended the cooperative agreement to run from November 1,
2010, to October 31, 2013, with an initial budget of $8.3 million. However, on March 22, 2012,
USAID reduced the funding and shortened the implementation period after determining that
World Learning was not complying fully with the requirements of the cooperative agreement.

The Regional Inspector General/Pretoria (RIG/Pretoria) conducted this audit as part of its
FY 2012 audit plan to determine whether USAID/Angola’s HIV/AIDS prevention activities were
achieving their main goals of strengthened health systems, changed behavior, and improved
strategic information. The audit found that key HIV/AIDS activities were not on track to achieve
main goals (page 6).

Significant delays in program start-up and implementation affected each of the mission’s
four key HIV/AIDS programs. Although implementing partners’ poor performance contributed,
USAID/Angola did not manage its HIV/AIDS programs effectively during the audit period,
primarily because of staffing vacancies. However, USAID/Angola had filled these vacancies by
September 2012 and was poised to show positive results in its future HIV/AIDS programming.

In addition, the audit disclosed that:

	 USAID/Angola did not implement performance management processes adequately
   (page 9). Processes for data collection, verification, and setting targets were subject to error
   and precluded substantiating reported data with source documentation. As a result,
   performance data were not credible for reporting or useful for making decisions.

	 USAID and PSI processes for use and management of program income were unclear
   (page 11). Mission staff members overlooked that PSI reported program income incorrectly
   on its financial forms, used up to $9,640 of program income in ways it should not have,
   underreported program income from Legal condom sales by $19,656, and did not report to
   USAID any program income from sales of Sensual, worth $358,208. As a result, PSI may
   not have used program income earned under the Integrated Health Social Marketing
   Program to reach eligible objectives, as stipulated by 22 Code of Federal Regulations
   (CFR) 226.24 and the cooperative agreement.

	 USAID/Angola did not facilitate program coordination (page 14). Two of the mission’s
   HIV/AIDS programs, PROACTIVO and ForçaSaùde, did complementary work in HIV
   counseling and testing, health facility mapping, and mobile clinic use, but were unaware of
   one another’s activities. As a result, the partners did not coordinate activities for greater
   program impact, and the mission risked duplicating partner efforts.

	 PSI’s advocacy work had not progressed as planned (page 15). PSI selected a local
   Angolan organization to lead advocacy efforts under PROACTIVO, but the organization was
   reluctant to work with target populations and ultimately unable to perform. PSI terminated
   the subagreement without finding a new advocacy partner and spent $70,000 without
   achieving planned advocacy objectives.

	 Angolans lacked awareness of USAID’s sponsorship (page 16). For example, a Ministry of
   Health official was unaware of USAID, despite working closely with the PROACTIVO referral



                                                                                                 3
   network, while beneficiaries did not recall USAID immediately after participating in a USAID-
   funded outreach activity. Consequently, the U.S. Government and the American people did
   not receive the maximum public diplomacy benefits from their assistance to Angola’s HIV
   prevention efforts.

To address the above issues, the audit recommends that USAID/Angola:

1. 	Implement a process for approving partner deliverables, which includes rerouting in the
    event of staff vacancies (page 9).

2. 	 Implement a mission policy to create annual site visit schedules for routine monitoring and
     addressing performance concerns, including alternate monitoring activities to mitigate travel
     constraints (page 9).

3. 	Implement a plan to verify that personnel performing agreement officer’s representative
    responsibilities receive the appropriate training and certification (page 9).

4. 	 Sign a memorandum of understanding with the Centers for Disease Control and Prevention
     (CDC) that defines the division of responsibilities for setting targets for and reporting
     performance on HIV/AIDS indicators (page 11).

5. 	 Request training for its staff and HIV/AIDS implementing partners from the Office of the U.S.
     Global AIDS Coordinator (OGAC) on setting targets for and reporting performance on
     HIV/AIDS indicators (page 11).

6. 	Implement procedures to verify that implementing partners report program income in
    accordance with their agreements with USAID (page 12).

7. 	 Require PSI to differentiate how it expended $9,640 in program income (for different uses,
     including providing incentives for meeting sales targets and holiday gifts), determine the
     allowability of the amounts expended for the different uses, and recover from PSI any
     amount determined to be unallowable (page 12).

8. 	 Verify that PSI reclassifies $19,656 in program income (that was incorrectly reported under
     the previous social marketing program) as income under the Integrated Health Social
     Marketing Program (page 13).

9. 	Require PSI to develop a written plan for using unexpended current and future program
    income to further eligible program objectives (page 13).

10. Determine whether PSI managed program income of $358,208 (from sales of Sensual
    condoms) in accordance with 22 CFR 226.24, and recover from PSI any amount that was
    managed incorrectly and determined to be unallowable (page 14).

11. Reach consensus with PSI on how to manage program income generated from future sales
    of Sensual brand condoms, and modify the cooperative agreement accordingly (page 14).

12. Develop a schedule for holding regular meetings with its HIV/AIDS partners to promote
    strategic coordination (page 15).




                                                                                                4
13. Implement policies and procedures for monitoring the effectiveness of approved branding
    and marking plans (page 18).

14. Remind PSI, in writing, of its obligation to brand all program materials (including
    supplementary promotional materials) according to its branding and marking plan,
    exempting only items explicitly identified in the plan from branding and marking
    requirements (page 18).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are in Appendix II, and our evaluation of them is on
page 19.




                                                                                         5
AUDIT FINDINGS 

Key HIV/AIDS Activities Were Not on
Track to Achieve Main Goals
The Partnership Framework between the Government of the Republic of Angola and the
Government of the United States of America to Combat HIV/AIDS 2009-2013 coordinates the
Government of Angola’s HIV National Strategic Plan and the U.S. Government’s goals for
prevention, care, and treatment of HIV/AIDS. In line with this 5-year strategy, USAID/Angola
designed its HIV/AIDS activities to strengthen Angola’s health systems, promote safe behaviors
among youth and high-risk groups, and help Angola enhance decision making by improving the
country’s strategic information on HIV/AIDS. USAID’s cooperative agreements with Jhpiego,
PSI, and World Learning included activities to support these objectives.

However, as of the third quarter of FY 2012, activities under USAID/Angola’s main HIV/AIDS
programs had not progressed as planned. For example, as of June 30, 2012—the end of the
third quarter—only 4 of 12 key performance indicators had achieved 75 percent or more of
annual targets (Appendix III). Moreover, only 7 of these had surpassed 60 percent of annual
targets, which mission staff considered to be the lowest acceptable threshold for programs to be
on track at that stage of implementation. Examples of the delays and problems follow:

	 ForçaSaùde was not able to train as many health-care workers as planned. According to
   Jhpiego staff, the Angolan Government asked ForçaSaùde to help train nurses to administer
   HIV tests and drugs, and this required Jhpiego to deviate from its planned curriculum.
   Jhpiego had to delay its trainings further because the initial training of trainers (which other
   donors funded) was postponed for 3 months. The USAID-funded training for nurses could
   not commence before the delayed training was complete, because those participants were
   responsible for training the nurses. Further, for the first 9 months of the program,
   ForçaSaùde had difficulty accessing government health records and did not report
   accurately the number of pregnant women who were tested for HIV and received their
   results.

	 The Integrated Health Social Marketing Program was unlikely to reach its annual target for
   the number of condoms sold because the program had run out of both its brands of
   condoms, Legal and Sensual, and did not anticipate new stock arriving until FY 2013.
   Additionally, PSI was not on track to meet its target for the number of outlets selling the
   condoms. These problems not only limited Angolans’ access to condoms but also
   threatened progress in the program’s behavior-change activities because, according to PSI
   staff, brand-loyal clients might choose not to use a condom if they could not purchase their
   preferred brand. However, this belief—that clients would choose to forgo condom use simply
   because their preferred brand is unavailable—calls into question the effectiveness of PSI’s
   behavior-change activities and the logic behind social marketing.

	 PROACTIVO performed poorly in its first year of implementation (FY 2011). To learn why,
   USAID/Angola funded an evaluation, which determined that PSI had not implemented
   activities as described in the program proposal. Although this evaluation helped improve the
   program, the need to make significant strategic changes delayed implementation. As a
   result, the program was still not on track to meet its target for a key program indicator—



                                                                                                 6
   most-at-risk populations reached with prevention methods—in FY 2012, achieving only
   7 percent of its annual target by June 30, 2012. Additionally, efforts in advocacy had not
   progressed as planned (page 15).

	 World Learning’s Kapelako Project activities were the only USAID-funded activities focused
   on HIV prevention among youth and the general population, and therefore they were
   significant to achieving the country’s HIV prevention goals. However, USAID/Angola
   determined that World Learning was not complying fully with certain requirements in the
   cooperative agreement and terminated the program early. Reasons for termination included
   inadequate staffing for two key personnel positions, lack of detailed work plans to meet
   program deliverables, and insufficient action on recommendations from the USAID
   evaluation mentioned above. World Learning consequently did not implement the final
   year’s planned activities, and nearly $5 million remained unspent.

Implementing partners’ staff vacancies contributed to these shortcomings. The PROACTIVO
chief of party position, for example, was mostly unfilled throughout the project, with PSI’s
country director occupying the position temporarily. The Integrated Health Social Marketing
Program also had been without a designated chief of party since June 2012, with PSI’s
marketing and sales director acting in the role at the time of the audit. Because of problems
obtaining a visa, World Learning’s chief of party for the Kapelako Project did not arrive in Angola
until more than 7 months into implementation, only to depart 6 months later when USAID
curtailed the project.

However, a general lack of USAID oversight, caused by vacancies in important health team and
support positions, also contributed (Figure 2). USAID/Angola’s mission order on performance
management and evaluation holds team leaders responsible for all aspects of assessing and
managing program performance, including monitoring through regular site visits. Program office
and monitoring and evaluation staff also have important roles, providing support and
reinforcement to the team when needed. These critical positions, though, were often vacant
during the audited period, and the mission order did not provide for reassigning responsibilities
in this situation.

           Figure 2. Vacancies on USAID/Angola’s Staff, Fiscal Years 2011 and 2012

  Oct‐10        Jan‐11     Apr‐11          Jul‐11        Nov‐11         Feb‐12         May‐12   Aug‐12

                                                                  health team leader

                                            senior HIV adviser

                                                                  HIV adviser

                                                      program officer

                                    PEPFAR coordinator
                                                           monitoring and 
                                                         evaluation specialist


USAID has had difficulty staffing its Angola mission because of language requirements, a very
high cost of living, and security concerns. These challenges resulted in positions being unfilled
from lack of interest or vacated because of tour curtailments. In addition, USAID/Angola cited


                                                                                                         7
delays in the hiring process in Washington, D.C., even after new staff had been identified. For
instance, the health team leader said she waited over a year to begin working in Angola after
receiving USAID’s initial job offer because of a lengthy security clearance process and other
delays. USAID attempted to fill these gaps with a series of temporary duty staff, including some
from USAID’s regional HIV program based in South Africa. However, locally employed staff,
assigned as the agreement officer’s representatives for multiple agreements, with minimal
presence of any supervisory staff, were unable to dedicate sufficient time or attention to manage
each program effectively.

While new staff eventually helped manage the workload, two out of four members of the
mission’s core PEPFAR team had not received agreement officer’s representative3 training at
the time of the audit, despite carrying out tasks associated with this role, such as monitoring
program performance and reviewing an agreement’s financial status.

Because of these USAID vacancies, PSI and World Learning had difficulty communicating with
USAID, delaying development and subsequent approval of work plans and performance reports.
Whereas USAID/Angola officials complained about the quality of these deliverables and partner
performance overall, partners responded that USAID provided little or no oversight during
program implementation, gave insufficient directions for reporting to OGAC, and was slow to
approve deliverables like work plans. Partners added that the little guidance they did receive
was often inconsistent and changed with each staff rotation at USAID. These vacancies, along
with domestic air travel restrictions only recently lifted by the U.S. State Department, impeded
USAID site visits and contributed to the lack of guidance reported by implementing partners. For
example, before the audit, USAID/Angola staff had not visited Cunene Province, which has one
of the highest HIV prevalence rates in Angola, to monitor any project activities, including those
under the World Learning and PSI agreements.

USAID/Angola cannot be successful in reaching its HIV prevention goals unless it improves its
management of activities. USAID has already obligated $14.6 million to the audited agreements,
and their activities (like interventions for most-at-risk populations, condom distribution, and HIV
testing at health facilities) are becoming increasingly important as Angola’s HIV prevalence rate
rises.

The mission had a fully staffed health office at the time of audit fieldwork, and new staff planned
to conduct site visits more frequently. In response to a recommendation from a prior audit,4
USAID/Angola reviewed its mission order on program performance management and evaluation
and updated its standard site visit checklist. Importantly, implementing partners lauded the
mission’s new health team, saying USAID oversight and communication had vastly improved
since its arrival. And, subsequent to the audit, mission staff said activities were on track for all
but one of the indicators in Appendix III by the end of the fourth quarter.

Nevertheless, current personnel coping with the legacy of slow program start-ups are largely
inexperienced in Angola, and institutional memory and established processes are inadequate to
monitor program activities effectively. Without personnel trained as agreement officer’s
representatives and processes to ensure oversight during staff vacancies, USAID/Angola risks


3
  An agreement officer’s representative is responsible for the daily administration of an award. USAID 

requires individuals to complete intensive training before assuming these responsibilities. 

4
  “Audit of USAID/Angola’s Public-Private Partnerships,” Report No. 4-654-12-006-P, February 27, 2012.




                                                                                                     8
reverting to deficient program management. To help avoid this situation, we make the following
recommendations.

    Recommendation 1. We recommend that USAID/Angola implement a process for
    approving partner deliverables, which includes rerouting in the event of staff vacancies.

    Recommendation 2. We recommend that USAID/Angola implement a mission policy to
    create annual site visit schedules for routine monitoring and addressing performance
    concerns, including alternate monitoring activities to mitigate travel constraints.

    Recommendation 3. We recommend that USAID/Angola implement a plan to verify that
    personnel performing agreement officer’s representative responsibilities receive the
    appropriate training and certification.

USAID/Angola Did Not Implement
Performance Management Processes
Adequately
USAID’s Automated Directives System (ADS), Chapter 203.3.11.1, states that for data to be
useful for performance management and credible for reporting, USAID should ensure that
performance data clearly and adequately represent the intended results, reflect stable and
consistent data collection processes and analysis methods over time, and are timely enough to
influence management decision making at the appropriate levels.

Nevertheless, USAID/Angola did not sufficiently implement target setting and performance
reporting processes to ensure that data were useful for performance management and credible
for reporting.

Target Setting. ADS 203.3.9 provides guidance on setting targets:

        It is critical to document the thinking behind targets, for later learning and
       adapting the project during implementation and to ensure continuity of
       information during staff transitions. Both the targets themselves and the
       justifications for the final targets should be maintained and updated with the
       indicator data in the mission’s [performance management plan]. (emphasis
       added)5

Yet the mission’s target-setting process for HIV/AIDS programs had weaknesses.
USAID/Angola staff members did not know on what basis to set FYs 2012 and 2013 targets
because their predecessors on staff had not adequately documented their methods. This
problem led to last-minute confusion and delays. Additionally, USAID’s staff found they could
not change FY 2012 targets in response to poor performance because they lacked guidance
from OGAC, which ultimately reviews and approves reported results and targets for USAID.



5
   This first appeared in ADS 203 in November 2012, but supplemental guidance to ADS 203
(Performance Monitoring and Evaluation TIPS, “Baselines and Targets,” Number 8, second edition),
effective since 2010, provided similar instructions for documenting target-setting methods.



                                                                                                9
Performance Reporting. Performance data should clearly and adequately represent actual
results. However, auditors reviewed the data reported to OGAC and were unable to reconcile it
with source documents, as detailed below:

	 PSI staff did not include 2 months of PROACTIVO data from its Cunene suboffice in its
   FY 2012 third quarter report. Although the data would have tripled the reported number of
   at-risk individuals reached and nearly doubled the reported number of condoms distributed
   for that quarter, these two indicators still would have been below 75 percent of the FY 2012
   target as of June 30.

	 PSI staff and subpartners collected data inconsistently for the number of people reached by
   PROACTIVO’s prevention messages to most-at-risk populations. A PSI program manager
   said an individual could be counted only one time as a beneficiary (afterward considered a
   participant), but auditors found that some PSI staff and subpartners counted individuals as
   beneficiaries each time they joined a new activity, thereby counting the same person
   multiple times. This meant that PSI reached fewer people than it reported, attaining even
   less than the claimed 7 percent of its annual target.

	 The Integrated Health Social Marketing Program counted both condoms sold and distributed
   free as part of its number of condoms sold. Distribution records showed that of the
   7,822,712 condoms PSI reported as sold under the program through the third quarter,
   47 percent had actually been distributed free as promotions or samples.

	 Neither PSI’s staff nor its subpartners could fully support the number of targeted condom
   service outlets they reported as being opened under the Integrated Health Social Marketing
   Program. In Huila Province, for example, auditors found that only one of four reported
   outlets had ever sold PSI condoms. Moreover, PSI staff double counted these same
   four outlets, reporting them first in the second quarter and again in the third quarter.

	 Auditors noted recording errors for the ForçaSaùde indicator, Number of pregnant women
   with known HIV status, during visits to health facilities. Errors included failing to indicate in
   patient registers whether a tested woman was pregnant, recording as pregnant women who
   were not, and miscounting in compiling register data for summary reports.

USAID/Angola asserted it had performance management processes in place, including
performance management plans and a mission order on performance monitoring and
evaluation, but it lacked the staff to implement these processes adequately (as discussed on
page 7). The mission instead relied on the CDC Strategic Information Team (the CDC team) to
compile, refine, and report partner data to OGAC. However, USAID and CDC had not formally
divided responsibilities for reviewing and reporting partner data. This informal arrangement
contributed to gaps in oversight and communication among USAID, its partners, the CDC team,
and OGAC—especially regarding target setting and processes for ensuring data quality.

For example, partners needed significant assistance collecting and reporting raw data, and their
performance reports contained mathematical and narrative errors. Partners submitted the
reports to USAID for review, but USAID staff did not have time to review them closely before
sending them to the CDC team for compilation. The CDC team adviser, who expected USAID to
check the reports for errors, said she spent a considerable portion of her time (up to 75 percent)
reviewing USAID partners’ reports, asking for revisions, and teaching partners to submit correct
data, to compensate for USAID’s inadequate oversight. Partners said these problems arose



                                                                                                 10
from human error, lack of adequately trained staff, and inconsistent guidance from USAID and
CDC on reporting methods and requirements.

Further, CDC team members were not aware of the USAID data quality requirements embodied
in ADS 203. If mission officials had adhered to these policies, which require periodic
assessments of data quality, they would likely have detected these problems. Except for those
used in the terminated World Learning agreement, no HIV/AIDS program indicators underwent
a data quality assessment for the audit period.

USAID and OGAC use annual performance results to set program strategy, budgets, and
targets, especially in developing the annual PEPFAR country operational plan. Inaccurate
reporting weakens the basis for sound planning, which is especially important in Angola where
USAID has experienced high staff turnover. Documenting justification for targets and the
methodology for setting them is equally important in this context so that incoming staff and
decision makers can manage programs effectively. To strengthen the quality of USAID/Angola’s
performance data, we make the following recommendations.

   Recommendation 4. We recommend that USAID/Angola sign a memorandum of
   understanding with the Centers for Disease Control and Prevention that defines the
   division of responsibilities for setting targets for and reporting performance on HIV/AIDS
   indicators.

   Recommendation 5. We recommend that USAID/Angola request training for its staff
   and HIV/AIDS implementing partners from the Office of the U.S. Global AIDS
   Coordinator on setting targets for and reporting performance on HIV/AIDS indicators.

USAID and PSI Processes for Use
and Management of Program Income
Were Unclear
The Integrated Health Social Marketing Program cooperative agreement requires PSI to
account for program income in accordance with 22 CFR 226.24. The agreement then states that
income should be added to the budget in accordance with 22 CFR 226.24(b)(1), which specifies
that these additional funds shall be “used to further eligible program objectives.” According to
22 CFR 226.24(a), “Recipients shall apply the standards set forth in this section to account for
program income related to projects financed in whole or in part with Federal funds.”

PSI’s Integrated Health Social Marketing Program generated income from condom sales.
According to PSI, the program earned approximately $149,490 from sales of Legal condoms
and $358,208 from sales of Sensual condoms in FY 2012. However, in the following instances,
PSI did not report this program income as specified in the above guidance, and USAID/Angola
did not adequately monitor it.

PSI Did Not Account for or Use Program Income From Legal Sales Properly. Despite the
requirement in 22 CFR 226.24(b)(1), PSI reported $9,639.75 of program income under the
“deduction alternative” on its June 30, 2012, financial report to USAID (Standard Form 425).
Although this alternative, which is authorized under 22 CFR 226.24(b)(3), allows program
income to be deducted from total allowable costs to reduce the amount paid by USAID, the
agreement specified that the best use of program income was to add it to the award so that
more activities could be completed.


                                                                                                11
Moreover, even if PSI officials had added this amount to funding committed by USAID, they may
not have spent it to further eligible objectives. PSI staff said they had used program income from
Legal condom sales to supplement sales staff salaries with holiday gifts and ad hoc bonuses for
meeting sales targets. Applicable cost principles6 note that compensation for personal services
(an eligible use) can include incentive awards, but such awards must be paid or accrued
pursuant to an established organizational policy or a good faith agreement entered into before
the services are provided. In correspondence subsequent to the draft report, PSI officials
provided an organizational policy that allows for sales incentives based on meeting individual
sales targets and noted that sales staff were made aware of the policy when joining PSI Angola.
Holiday gifts, on the other hand, do not appear to be part of the policy and would therefore not
be allowable under the cost principles or an eligible use of program income.

In addition, the audit noted that PSI underreported program income generated from sales of
Legal condoms by $19,656. PSI staff had inadvertently accounted for program income earned
from October 2011 to January 2012 under codes for the previous USAID-funded social
marketing program, but had not made corrections at the time of audit fieldwork.

PSI officials attributed these mistakes to human error. For instance, the assistant controller for
PSI acknowledged that program income should have been added to the program budget, not
deducted, and noted that it will be treated properly in future financial reports. Similarly, officials
said they would reclassify $19,656 of program income to the current Integrated Health Social
Marketing Program in the next financial report to USAID. As for the use of the income, the PSI
team in Angola was unfamiliar with relevant cost principles and thought using program income
to support staff salaries and provide employee incentives was allowable.

USAID/Angola staff contacted the agreement officer in South Africa for general guidance on
program income shortly before the start of the audit. The staff, which was new to
USAID/Angola’s social marketing activities, lacked familiarity with the guidance on use of
program income to identify these mistakes. As a result, program income generated from Legal
condom sales under the Integrated Health Social Marketing Program was not used as intended
to further eligible objectives. To address these concerns, we make the following
recommendations.

    Recommendation 6. We recommend that USAID/Angola implement procedures to
    verify that implementing partners report program income in accordance with their
    agreements with USAID.

    Recommendation 7. We recommend that USAID/Angola (1) require Population
    Services International to differentiate how it expended $9,640 in program income (for
    different uses, including providing incentives for meeting sales targets and holiday gifts),
    (2) determine the allowability of the amounts expended for the different uses, and
    (3) recover from Population Services International any amount determined to be
    unallowable.




6
  Office of Management and Budget Circular A-122, “Cost Principles for Non-Profit Organizations,”
Attachment B, Sections 8(a) and 8(j).



                                                                                                   12
   Recommendation 8. We recommend that USAID/Angola verify that Population Services
   International reclassifies $19,656 in program income (that was incorrectly reported under
   the previous social marketing program) as income under the Integrated Health Social
   Marketing Program.

   Recommendation 9. We recommend that USAID/Angola require Population Services
   International to develop a written plan for the use of unexpended current and future
   program income to further eligible program objectives.

PSI Did Not Report Program Income From Sales of Sensual. Although 22 CFR 226.24(a)
applies to program income generated from projects financed fully or partially by the U.S.
Government, the audit found that PSI did not report program income generated from sales of
Sensual condoms.

PSI officials explained they do not report program income for Sensual condoms because PSI
owns the brand and procures those condoms with its own funds. Conversely, USAID procures
Legal condoms on behalf of the program. Sensual, however, is an integral part of the program,
and, most importantly, PSI sells both brands of condoms with staff, resources, and marketing
channels funded by USAID. Sales of Sensual condoms also contributed to PSI’s performance
results, representing nearly 30 percent of condoms sold during the audited period.

PSI staff members were unable to explain how the decision originated to treat program income
from Sensual condoms differently than that from Legal condoms, besides the initial reasons
given above, and could not produce documentation to show that USAID had approved the
decision to do so. The cooperative agreement lacked any detail on treating program income
differently for the different brands or attributing it to USAID, and the USAID/Angola team said
that during award negotiations USAID had not addressed how program income would be
reported or used. In contrast, USAID did not procure condoms for a similar social marketing
program in Kenya, yet the cooperative agreement there specified the amount of program
income that would be attributed to USAID for the promotion and distribution of the PSI-procured
condoms.

According to PSI’s staff, program income generated from sales of Sensual condoms is used to
procure more Sensual condoms for the program. USAID/Angola officials also understood that
program income from Sensual would replenish Sensual inventories. Without proper monitoring
or reporting, though, USAID/Angola lacked assurance that PSI added program income to the
funds provided by USAID as required by the agreement and 22 CFR 226.24(b)(1).

Moreover, because PSI staff did not report or attribute program income from Sensual condoms
to USAID, and USAID/Angola staff did not monitor it, PSI staff had an incentive to encourage
sales of Sensual condoms over Legal—especially since PSI earned $0.13 per Sensual condom
sold, compared with only $0.05 per Legal condom sold. Notably, sales reports for the audited
period show that PSI consistently sold more Sensual condoms than Legal until it ran out of
stock. This tendency could have implications for program achievement and sustainability
because Sensual is sold to customers for twice the price of Legal, and PSI staff identified cost
as a barrier to sales.




                                                                                               13
To address these concerns, we make the following recommendations.

    Recommendation 10. We recommend that USAID/Angola determine whether
    Population Services International managed program income of $358,208 (from sales of
    Sensual condoms) in accordance with Title 22 of the Code of Federal Regulations,
    Part 226, Section 24, and recover from Population Services International any amount
    that was managed incorrectly and determined to be unallowable.

    Recommendation 11. We recommend that USAID/Angola reach consensus with
    Population Services International on how to manage program income generated from
    future sales of Sensual brand condoms, and modify the cooperative agreement
    accordingly.

USAID/Angola Did Not Facilitate
Program Coordination
 
According to ADS 202.3.5.3, USAID plays a critical role in helping implementing partners
achieve results by ensuring coordination and collaboration with partners, host-country entities,
other donors, and customers. USAID/Angola’s health sector strategy for 2011-2016 also
identified the need for coordination, noting, “USAID partners need clear terms of reference with
each other . . . to ensure effective coordination.” Despite this guidance, USAID/Angola
overlooked the following clear opportunities for strategic coordination.

	 Referral networks. PROACTIVO encouraged HIV counseling and testing by referring
   beneficiaries to selected health facilities, while ForçaSaùde trained staff to provide HIV
   counseling and testing. However, PROACTIVO’s referral network did not include
   ForçaSaùde-supported facilities because it did not know ForçaSaùde had trained staff to
   provide these services. In Huambo Province, for instance, PROACTIVO could have
   expanded its referral network to 16 facilities from 5. Expanded access is important, as
   partners noted that difficulty accessing health facilities with trained personnel kept
   individuals from being tested.

	 Facility mapping. ForçaSaùde and PROACTIVO unknowingly conducted similar mapping
   exercises in Luanda and Huambo Provinces. Both exercises sought to identify the number
   and location of health facilities, the ability of those facilities to provide HIV counseling and
   testing, and opportunities for training. These mapping exercises were required before both
   programs’ training and referral activities could begin. Moreover, ForçaSaùde and
   PROACTIVO both trained facility staff in HIV counseling and testing without strategically
   coordinating geographic coverage, health facilities, or curriculums to maximize impact and
   avoid duplication.

	 Mobile clinics. ForçaSaùde and PROACTIVO independently expressed the need for more
   mobile clinics to reach most-at-risk populations. ForçaSaùde has a strong relationship with
   the Ministry of Health and influence over the positioning of its mobile clinics; PROACTIVO
   mapped and works in hot spot locations7 where mobile clinics would be most beneficial.
   Although PSI staff members said they briefly talked about using mobile clinics with Jhpiego

7
 PROACTIVO operates in hot spot locations such as bars, nightclubs, gas stations, border crossings,
and restaurants, where PSI outreach workers are likely to find most-at-risk populations.



                                                                                                14
   months before the audit, neither USAID/Angola nor the partners had made progress
   coordinating on this topic.

These activities were not coordinated because USAID/Angola had not held regular partner
meetings where partners could discuss activities. In addition, different agreement officer’s
representatives managed ForçaSaùde and PROACTIVO, and since the individuals were only
responsible for reviewing and approving the work plans of the programs they were managing,
neither knew about the other’s program. This was exacerbated by extended vacancies in the
health team’s supervisory positions, which limited insight into the full health portfolio. Mission
staff also attributed lack of coordination to the staff vacancies discussed on page 7, adding that
the limited, overloaded staff did not have time to organize or host joint meetings.

As a result, USAID/Angola did not maximize the impact of its HIV prevention programs and
missed opportunities to achieve development objectives. For example, at the end of the
third quarter, PROACTIVO had reached less than 4 percent of its annual target for referrals to
HIV counseling and testing, and ForçaSaùde achieved only about half of its annual target for the
number of people receiving HIV counseling and testing services. Both partners could have
achieved greater coverage with coordination. In addition, USAID/Angola risked duplicating
partner efforts in areas like facility mapping and training—a concern given funding limitations
and implementation delays. To address these concerns, we make the following
recommendation.

   Recommendation 12. We recommend that USAID/Angola develop a schedule for
   holding regular meetings with its HIV/AIDS partners to promote strategic coordination.

PSI’s Advocacy Work Had Not
Progressed as Planned
An objective of PROACTIVO was to “strengthen the environment at national and lower levels for
civil society-led advocacy, networking and collaboration with the [Government of Angola] and
stakeholders.” PSI believed that achieving this objective was essential for effective
implementation and sustainability of HIV prevention services targeted to most-at-risk
populations. Advocacy in this context meant advocating for policies that improved access to HIV
prevention and care services and reduced stigma and discrimination.

Despite the importance of advocacy, PROACTIVO had not achieved most results under this
objective 2 years into the 3-year program because its main advocacy partner, Action for Rural
Development and the Environment (ADRA), was unable to complete the work. PSI staff
members described ADRA, a small Angolan organization, as reluctant to engage with the high-
risk groups that PROACTIVO targeted or to discuss openly the advocacy issues that it was
responsible for advancing. PSI terminated its agreement with ADRA on June 21, 2012, for
nonperformance, having expended $70,000 of the $580,000 subagreement.

ADRA’s poor performance was attributable to a lack of a preaward assessment and unclear
responsibilities.

	 Lack of preaward assessment. PSI described ADRA in the cooperative agreement as one of
   approximately four Angolan civil society organizations known to have experience working
   with most-at-risk populations. However, PSI officials said this experience consisted of small-
   scale, community-based, income-generating activities for people living with HIV/AIDS.


                                                                                               15
    Although they assumed this experience would translate to PROACTIVO’s large-scale
    advocacy objectives on behalf of sex workers and truckers, it did not. PSI did not carry out a
    preaward assessment of ADRA. PSI staff explained that, according to PSI policy,
    subpartners proposed as part of a cooperative agreement were not subject to
    comprehensive capacity assessments. Since USAID is not required to complete preaward
    assessments of established organizations like PSI, or its subpartners, the mission would not
    have identified this discrepancy before approving ADRA as a subpartner in the cooperative
    agreement.

	 Unclear responsibilities. The USAID-funded evaluation completed in 2011 noted that
   ADRA’s responsibilities under the program were unclear and that delays in implementation
   resulted from misunderstandings about ADRA’s scope of work. The subagreement outlining
   ADRA’s responsibilities was only one page and omitted details about specific activities or
   objectives. The evaluation suggested that USAID review ADRA’s work plans to confirm that
   planned activities aligned with overall objectives and technical approaches; however, as
   noted in the evaluation, such a review would have been beyond the substantial involvement8
   limitations of a cooperative agreement.

PSI had not found a new advocacy partner at the time of audit fieldwork. Instead, USAID/Angola
and PSI had agreed to reallocate the $510,000 that remained from ADRA’s subagreement to
existing subawards ($200,000) and to PSI ($310,000). PSI, nevertheless, expended $70,000
without achieving advocacy objectives—objectives that were important for sustainability in the
program’s other focus areas for most-at-risk populations, such as behavior change and HIV
counseling and testing. PSI officials noted that the organization has since amended its policy to
carry out preaward assessments for all subpartners receiving awards worth more than $100,000
and simple assessments for subawards of smaller amounts. Further, the mission was
developing a new advocacy plan to address these concerns at the time of audit fieldwork. In
light of these actions, the audit makes no recommendations on advocacy work.

Angolans Lacked Awareness of
USAID’s Sponsorship
USAID’s framework legislation, the Foreign Assistance Act of 1961, as amended, Section 641,
requires that all programs under the Foreign Assistance Act be identified appropriately as
“American Aid.” This legislation authorizes ADS, Chapter 320, “Branding and Marking,” which
guides the Agency’s activities to help achieve this objective. Moreover, communicating USAID’s
sponsorship to beneficiaries has become a priority of U.S. foreign assistance with the increasing
importance of development in achieving U.S. foreign policy objectives.

Despite this guidance, the audit found that beneficiaries of the USAID/Angola programs audited,
and even some people implementing them, were generally unaware of USAID or USAID’s
sponsorship. Examples follow.

	 In Cunene Province, a Ministry of Health official and all three nurses visited did not know
   that USAID was funding PSI’s HIV/AIDS activities in the area, despite participating in
   PROACTIVO’s referral network for HIV counseling and testing.

8
  Substantial involvement refers to USAID’s active participation in certain elements of a USAID-funded
program, which is limited under a cooperative agreement as discussed in ADS 303.3.11.



                                                                                                   16
	 In Huambo and Huila Provinces, none of the six PROACTIVO outreach workers knew about
   USAID’s role in PROACTIVO.

	 In Cunene Province, none of the six beneficiaries interviewed knew what USAID was or that
   USAID funded the free condoms and training materials they had just received through
   PROACTIVO.

	 In Huambo, Huila, and Luanda Provinces, none of the nine retailers interviewed who were
   selling USAID-funded condoms through the Integrated Health Social Marketing Program
   knew exactly what USAID was.

	 In Huambo Province, neither of the two nurses interviewed who were trained under
   ForçaSaùde recalled that USAID had sponsored the training.

Several factors contributed to this lack of recognition. First, partners were not always adhering
to their branding and marking plans, which are important for boosting public awareness of
USAID. For example, auditors noted that PROACTIVO outreach worker uniforms did not bear
the USAID logo as required by the program’s plan. PSI staff members explained that this was
an oversight in the ordering process but had not taken steps to correct it. Similarly, auditors
noted that promotional materials for Legal condoms, such as T-shirts and posters, did not show
USAID’s logo. ADS 320.3.2.5 and the branding and marking plan exempted PSI from
cobranding the condoms themselves or the condom packaging, but this exemption did not
extend to supplementary promotional materials. During site visits in Luanda, auditors also found
that a nurse’s completion certificate from ForçaSaùde training was not cobranded as required
by the program’s plan.

Second, PSI had not met targets for distribution of materials, such as T-shirts, manuals, and
information pamphlets. These promotional materials are highly visible to beneficiaries. For its
part, PROACTIVO had met only about 9 percent of its annual target for distributing such
materials by the end of the third quarter. The Integrated Health Social Marketing Program also
had low results, achieving only 24 percent of its annual target. Moreover, all of the materials
distributed under this program were Legal brand promotional items, which were not cobranded.

Finally, USAID/Angola did not adequately monitor the effectiveness of partners’ branding and
marking plans. Travel restrictions and staffing shortages hindered mission staff from conducting
site visits, so USAID/Angola was unaware when partners did not adhere to their branding and
marking plans in the field. The lack of site visits also limited USAID/Angola’s interactions with
field staff, such as PROACTIVO outreach workers and ForçaSaùde-trained nurses, which would
have increased USAID’s visibility and reinforced the branding and marking plans. Mission staff
also did not prioritize branding and marking given other significant problems, such as delays in
program implementation. Notably, mission staff overlooked approving the draft branding and
marking plan for PROACTIVO during staff transitions.

As a result, the U.S. Government and the American people did not receive the maximum public
diplomacy benefits from their assistance to Angola’s HIV prevention efforts. A previous
RIG/Pretoria audit noted these shortcomings at USAID/Angola and recommended that the
mission remind staff of their responsibilities to monitor adherence to branding and marking




                                                                                              17
requirements.9 Although the mission agreed and reminded staff of their responsibilities, the
problem remains. Recommendation 1 on page 9 will improve processes for approving partner
deliverables in the event of staff vacancies, including branding and marking plans. We therefore
make the following recommendations.

      Recommendation 13. We recommend that USAID/Angola implement policies and
      procedures for monitoring the effectiveness of approved branding and marking plans.

      Recommendation 14. We recommend that USAID/Angola remind Population Services
      International, in writing, of its obligation to brand all program materials (including
      supplementary promotional materials) according to its branding and marking plan,
      exempting only items explicitly identified in the plan from branding and marking
      requirements.




9
    “Audit of USAID/Angola’s Public-Private Partnerships,” Report No. 4-654-12-006-P, February 27, 2012.



                                                                                                      18
EVALUATION OF MANAGEMENT
COMMENTS
In its formal comments on the draft report, USAID/Angola agreed with all 14 recommendations.
We acknowledge management decisions on Recommendations 1-6, 8, 9, and 11-14, and final
action on Recommendation 12. Recommendations 7 and 10 remain without a management
decision because, in accordance with ADS 595.3.1.2, management decisions cannot be
reached until the agreement officer specifies the amount of questioned costs allowed and/or
disallowed and sets a target date for collection of any disallowed costs. Furthermore, we
disagree with the management decision reached on Recommendation 5. Our evaluation of
management comments follows.

Recommendation 1. USAID/Angola agreed to implement a process for approving partner
deliverables, which includes rerouting in the event of staffing vacancies, and planned to update
its mission order on monitoring and evaluation, by March 31, 2013. In subsequent
correspondence, the mission added that it already had announced new processes for routing
and managing financial and performance reporting documents at a December 2012 health team
meeting. As a result, we acknowledge that a management decision has been made on
Recommendation 1.

Recommendation 2. USAID/Angola agreed to implement a mission policy to create annual site
visit schedules for routine monitoring and addressing performance concerns, including alternate
monitoring activities to mitigate travel constraints. The target date for completion of this action is
March 31, 2013. As a result, we acknowledge that a management decision has been reached
on Recommendation 2.

Recommendation 3. USAID/Angola agreed to implement a plan to verify that personnel
performing agreement officer’s representative responsibilities receive the appropriate training
and certification. Planned actions include updating its mission order on training by March 31,
2013, to ensure that staff training plans are updated annually. The mission added in subsequent
correspondence that it had already developed a training plan for the health team to ensure that
members who focus on HIV have received agreement officer’s representative training and
certification. As a result, we acknowledge that a management decision has been reached on
Recommendation 3.

Recommendation 4. USAID/Angola agreed with the recommendation and will finalize a letter of
agreement with CDC that outlines strategic information responsibilities. The letter of agreement
will be finalized by March 31, 2013. Consequently, we acknowledge that a management
decision has been made on Recommendation 4.

Recommendation 5. USAID/Angola agreed with the recommendation to request training from
OGAC for mission staff and implementing partners on setting targets and reporting
performance. In its comments, the mission said it expected OGAC to provide this training in
Angola by March 31, 2013, and added that its HIV/AIDS staff members would be able to meet
with OGAC in Washington, D.C., by April 30, 2013, for one day of training on this topic. In
subsequent correspondence, the mission said OGAC will no longer be able to provide the
Angola training as planned and that their emphasis would now be on the Washington, D.C.,



                                                                                                   19
training. In light of management’s comments and subsequent correspondence, we acknowledge
that a management decision has been reached on Recommendation 5.

However, we disagree with this management decision because it does not address training for
the mission’s implementing partners, which was an integral part of the recommendation. To
obtain OIG agreement, a revised management decision could, for instance, propose a plan, with
a target date for completion, for providing training to implementing partners that is based on the
April consultations with OGAC in Washington.

Recommendation 6. USAID/Angola agreed with the recommendation to implement procedures
to verify that implementing partners report program income in accordance with their USAID
agreements. Planned actions include an official letter to partners regarding program income
requirements, and an additional checklist step for agreement officer’s representatives to use in
verifying program income. The target date for completion is April 30, 2013. In light of
management’s comments, we acknowledge that a management decision has been reached on
Recommendation 6.

Recommendation 7. USAID/Angola agreed with the recommendation to require PSI to
differentiate how it spent $9,640 in program income, determine the allowability of the amount
spent for different uses, and recover from PSI any amount determined to be unallowable. The
mission said it planned to review PSI’s policy on staff incentives, determine whether the policy
complies with Agency regulations for the use of program income, draft an official response on
the allowability of using program income for staff incentives, and recover from PSI any amount
determined to be unallowable. The target date for completion of these actions is April 30, 2013.
However, in accordance with ADS 595.3.1.2, a management decision cannot be reached until
the agreement officer makes a determination on the allowability of questioned costs. Thus,
Recommendation 7 remains without a management decision at this time.

Recommendation 8. USAID/Angola agreed to request written verification from PSI that it has
reclassified program income of $19,656 to the current social marketing program. Subsequent
correspondence set the target completion date for this action as March 31, 2013. As a result, we
acknowledge that a management decision has been reached on Recommendation 8.

Recommendation 9. USAID/Angola agreed with the recommendation to require PSI to develop
a written plan for the use of unspent current and future program income to further program
objectives. The mission said it would request a modification to the agreement with PSI to
include this plan. Subsequent correspondence set the target completion date as March 31,
2013. Consequently, we acknowledge that a management decision has been made on
Recommendation 9.

Recommendation 10. USAID/Angola agreed with the recommendation to determine whether
PSI managed program income of $358,208 from sales of Sensual condoms in accordance with
22 CFR 226.24 and to recover from PSI any amount that was managed incorrectly. The mission
stated it would, by April 30, 2013, develop a plan to ensure that PSI manages program income
correctly, formally communicate to PSI its expectations for managing program income, and
modify the agreement accordingly. The mission’s planned actions did not address the issue of
whether PSI’s failure to report $358,208 as program income was proper, or the recovery of any
amounts from PSI if the nonreporting is deemed improper. In accordance with ADS 595.3.1.2, a
management decision cannot be reached until the agreement officer makes a determination on
the allowability of questioned costs. Thus, Recommendation 10 remains without a management
decision at this time.


                                                                                               20
Recommendation 11. USAID/Angola agreed with the recommendation to reach consensus
with PSI on how to manage program income generated from future sales of Sensual condoms,
and modify the cooperative agreement accordingly. The mission said it would first determine, in
coordination with the USAID agreement officer and regional legal advisor, whether PSI’s current
policy complies with Agency regulations, and then modify the agreement if necessary. The
target date for completion is June 30, 2013. In light of management’s comments, we
acknowledge that a management decision has been reached on Recommendation 11.

Recommendation 12. USAID/Angola agreed with the recommendation. The mission developed
an annual plan for quarterly partner meetings to promote strategic coordination, which it shared
with partners during coordination meetings on October 18, 2012, and February 1, 2013. In light
of this action and supporting documentation provided, we acknowledge that a management
decision has been reached and final action taken on Recommendation 12.

Recommendation 13. USAID/Angola agreed with the recommendation to implement policies
and procedures for monitoring the effectiveness of approved branding and marking plans. The
mission said it will provide refresher training for agreement officer’s representatives, develop a
PowerPoint training session for partners, and update its monitoring mission order to address
oversight of branding and marking. The target date for completion is May 31, 2013. In light of
management’s comments, we acknowledge that a management decision has been reached on
Recommendation 13.

Recommendation 14. USAID/Angola agreed with the recommendation. The mission said it
would send an official letter by April 30, 2013, reminding PSI of its branding and marking
obligations. In light of management’s comments, we acknowledge that a management decision
has been reached on Recommendation 14.




                                                                                               21
                                                                                  Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/Pretoria conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe the evidence obtained provides
that reasonable basis.

The objective of the audit was to determine whether USAID/Angola’s HIV/AIDS prevention
activities were achieving their main goals of strengthened health systems, changed behavior,
and improved strategic information. We conducted audit fieldwork from September 18 to
October 5, 2012.

In planning and performing this audit, we assessed internal controls related to program
activities. Specifically, we reviewed the following:

	 USAID/Angola’s FY 2012 evaluation required under Federal Managers’ Financial Integrity
   Act of 198210

	 Program cooperative agreements and modifications

	 USAID/Angola HIV Prevention Portfolio Review (August 9, 2011)

	 Partner annual work plans

	 Partner financial reports

	 Partner quarterly performance reports

	 USAID/Angola’s health team organizational chart

	 Data quality assessment of Kapelako Project indicators

	 Agreement officer’s representative designation letters and certifications

USAID/Angola received a total of $20 million in PEPFAR funding in FYs 2011 and 2012 to
implement HIV/AIDS activities. We obtained documentation from USAID/Angola on the
HIV/AIDS portfolio and judgmentally selected agreements for audit based on funding amounts,
the timeline of activities, and performance issues identified in USAID/Angola’s 2011 HIV
Prevention Portfolio Review. Accordingly, the audit reviewed the mission’s four main HIV/AIDS
programs, representing total awards of $61.4 million: ForçaSaùde, implemented by Jhpiego;
Integrated Health Social Marketing and PROACTIVO, implemented by PSI; and Kapelako
Project, implemented by World Learning.

10
     Public Law 97-255 codified in 31 U.S.C. 3512.



                                                                                          22
                                                                                       Appendix I




The audit scope excluded two multicountry HIV/AIDS agreements that were active in Angola but
were regionally managed and had combined budgets of just over $1 million for Angola activities
in FY 2012. In addition, we limited audit procedures for the Kapelako Project because it
terminated on September 30, 2012, during audit fieldwork. We did not conduct site visits or
detailed data quality testing for this program because any resulting findings would not have
been relevant at report issuance.

As of June 30, 2012, obligations and expenditures for the four programs under review totaled
$14.6 million and $11.4 million, respectively. The audit focused the program review on FY 2012
activities through June 30, 2012.

In planning the audit, we interviewed regional USAID/Southern Africa staff members in Pretoria
who assisted in program management. We conducted audit fieldwork in Luanda at
USAID/Angola to interview key mission officials, and at PSI, Jhpiego, and World Learning head
offices to interview partner officials. In addition, we conducted site visits in four provinces in
Angola to speak with field staff and observe ongoing activities, as follows:

	 In Luanda Province, we visited PSI and Jhpiego project locations including two Jhpiego­
   supported health facilities, a PSI condom wholesaler, and two PSI condom retailers.

	 In Huambo Province, we visited two Jhpiego-supported health facilities, a Jhpiego­
   supported mobile HIV testing clinic, three PSI condom retailers, and the Angolan Ministry of
   Health provincial office.

	 In Huila Province, we visited a PSI subawardee and four PSI condom retailers.

	 In Cunene Province, we visited four PSI intervention hot spots, two health facilities involved
   in PSI’s referral activities, and the local public health office.

We reviewed findings from a prior audit on USAID/Angola’s public-private partnerships (4-654­
2-006-P, February 27, 2012) and considered those that affected the audited HIV/AIDS
programs. These findings pertained to program management and monitoring, site visits, and
branding and marking.

Methodology
To answer the audit objective, we began by reviewing ADS 201, “Planning”; 202, “Achieving”;
203, “Assessing and Learning”; 204, “Environmental Procedures”; 302, “USAID Direct
Contracting”; 303, “Grants and Cooperative Agreements with Non-Governmental
Organizations”; and 320, “Branding and Marking.” We also reviewed the PEPFAR Next
Generation Indicator Guide for guidance on performance monitoring and reporting and the
Partnership Framework between the Government of the Republic of Angola and the
Government of the United States of America to Combat HIV/AIDS 2009-2013 for details on the
countries’ HIV/AIDS strategies and coordination.

During planning and fieldwork, we interviewed USAID officials in South Africa and Angola. To
understand program guidance, background, and implementation, we interviewed agreement
officers, financial management officials, regional and bilateral health team staff, and agreement



                                                                                               23
                                                                                      Appendix I


officer’s representatives. We also interviewed CDC staff members in Angola who were
responsible for OGAC reporting.

We conducted meetings at implementing partner offices in Luanda and suboffices in provincial
capitals. The purpose of these meetings was to obtain detailed insight from partners and
subpartners on project performance, their working relationships with USAID, and how program
results were achieved. Additionally, when possible, we interviewed provincial government health
officials to understand how the programs are working with the Angolan Government.

In addition, we obtained and reviewed program documentation, including agreements and
performance reports, to substantiate these interviews and assess program achievement. We
compared results reported by partners as of June 30, 2012 (the end of the third quarter), with
FY 2012 targets (Appendix III) to determine whether they were on track to achieve the targets
by the end of the fiscal year. To establish a materiality threshold for evaluating success of
program activities, we considered indicators that had reached 75 percent of their annual target
to be on track.

To assess data quality and validate results, we reviewed supporting documentation for the data
partners reported in the third quarter of FY 2012 for selected indicators. Source documentation
included partner databases, training registers, outreach workers’ forms from behavior change
activities targeted to most-at-risk-populations, and sales records. We judgmentally selected this
period for review because its data were the most recent reported. Results from the selected
samples cannot be projected to all records of quarterly performance data.




                                                                                              24
                                                                                        Appendix II



MANAGEMENT COMMENTS 



DATE: 	          February 13, 2013

TO: 	            Robert W. Mason, Regional Inspector General/Pretoria

FROM: 	          Teresa McGhie, Mission Director, USAID/Angola /s/

SUBJECT: 	       Management Decisions on the Audit of USAID/Angola’s HIV/AIDS Activities
                 (Draft Audit Report No.: 4-654-13-XXX-P)


In accordance with ADS 595.3.1, this memorandum transmits the Missions management
comments on the subject audit report of the Mission’s HIV/AIDS activities. We express our
gratitude to the RIG for conducting this audit and preparing the draft report.

The timing of this audit is opportune because, for the first time since 2005, the Mission’s health
team has a full staff dedicated to manage USG funds by providing comprehensive oversight of
HIV/AIDS activities. The recently arrived Supervisory General Development Officer, who
comes to Angola with substantial USAID experience, is well placed to lead the Mission’s health
nascent team in responding to all areas of concern in this audit. We appreciate the opportunity to
provide clarifications and comments.


FINDINGS

1.      Key HIV/AIDS activities were not on track to achieve main goals (page 6)

Management Comments: The Mission agrees with this finding. However, we wish to note that
by the end of the fourth quarter, activities were on track for all but one of the referenced
indicators.

Recommendation No. 1:
         Implement a process for approving partner deliverables, which includes rerouting in the
         event of staffing vacancies

Management Decision:
The Mission agrees with this recommendation.

Action taken:


                                                                                                   25
                                                                                         Appendix II


Since the audit, the Mission has implemented processes for managing and routing financial
reporting of accruals and pipeline, and for quarterly reporting of strategic information.

Actions Planned:
Specific language will be added to the recently updated Mission Order 203, which clarifies the
chain of responsibility in the case of staff vacancies. Because of the number of field support
activities in the program, we intend to add two requirements: (1) Activity Managers are assigned,
with alternates, for all centrally managed programs, and that responsibilities of Activity
Managers are clearly delineated, and (2), AOR and Activity Manager files are regularly updated.
This action is expected to be completed by March 31, 2013.

Recommendation No. 2:
       Implement a mission policy to create annual site visit schedules for routine monitoring and
       addressing performance concerns, including alternate monitoring activities to mitigate
       travel constraints

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission has created an annual work plan that includes a site visit schedule planned for FY
2013.

Actions Planned:
The Mission has established the work plan and site visit schedule. Both have been
communicated with all partners on 1 February 2013. The Mission will finalize after receiving
partner feedback no later than March 31, 2013. The Mission will also update Mission Order 203
on Performance Monitoring and Evaluation to require annual site visit schedules. Site visits will
be performed no less than quarterly. This action will be completed by March 31, 2013.

Recommendation No. 3:
       Implement a plan to verify that personnel performing Agreement Officer’s Representative
       responsibilities receive the appropriate training and certification

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission Health Team, including members who focus primarily on HIV, has a training plan
for all current staff that addresses this recommendation.

Actions Planned:
An updated Mission Order on training will ensure that training plans are updated at least
annually and as new staff join the Mission. Documentation of training completion will be
centrally maintained. A Mission Notice will require all staff to deliver course completion
certification to their supervisor for central filing. These three Mission-based actions will be
completed by or before March 31, 2013.


                                                                                                  26
                                                                                      Appendix II




2.     USAID Angola Did Not Implement Performance Management Processes Adequately
(page 9)

Management Comments: The Mission agrees with this finding. It should be noted that USAID
Angola has performance management processes in place, but have not had adequate staff to
facilitate implementation of such processes. All key positions, however, have now been filled,
and the HIV/AIDS Team is beginning to implement existing procedures to improve performance
management. For example, the recently hired M&E Advisor has begun to address partner data
reliability and validity through regular DQAs and review of quarterly strategic information
reports for PEPFAR. This M&E oversight is enabling the Mission to identify over- and
underreporting, and to rectify and reconcile reported data with source documents. Post audit, the
M&E Advisor received on-the-job training by the OGAC Strategic Information (SI) Advisor to
support the Mission. In addition, approximately one month after the audit was conducted the
health team delineated a yearlong plan that includes regular monitoring visits of all
implementing partner activities.

Recommendation No 4:
       Sign a memorandum of understanding with the Centers for Disease Control and Prevention
       (CDC) that defines the division of responsibilities for setting targets for and reporting
       performance on HIV/AIDS indicators

Management Decision:
We agree with this recommendation in principle, but will proceed with a “Letter of Agreement”
instead of a memorandum of understanding.

Actions Taken:
The Mission has initiated several phone calls with the OGAC SI Advisors to understand the roles 

and responsibilities of the SI Advisor for USG Angola. To date, the HIV/AIDS Team has 

received a copy of the SI program description, and is using it as the basis for a Letter of 

Agreement between the USG Agencies. This Letter of Agreement has been drafted by USAID 

and shared with CDC for review/comments. 


Actions Planned: 

To finalize the “Letter of Agreement” between CDC and the Mission on or before March 31, 

2013.


Recommendation No. 5:
       Request training for its staff and HIV/AIDS implementing partners from the Office of the
       U.S. Global AIDS Coordinator (OGAC) on setting targets for and reporting performance
       on HIV/AIDS indicators

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:


                                                                                              27
                                                                                         Appendix II


The Angola OGAC Country Team support lead is scheduled to arrive in March 2013 to provide
this training. In addition, the recently hired USAID M&E Advisor had one-on-one, on-the-job
training with the OGAC SI Advisor during his recent trip to Angola in November/December
2012, and supported with the preparations of the Annual Report.

Actions Planned:
Upon completion of the March training, the HIV/AIDS team will document the process for target
setting by or before September 30, 2013. In addition, both HIV/AIDS team members on official
travel to Washington, DC for training in March and April will have at least one consultative day
with OGAC for on the job training. This action will be completed on April 30, 2013.


3.      USAID and PSI Processes for Use and Management of Program Income Were Unclear
(p 11)
 Management Comments: The Mission agrees with this finding and wishes to point out that
subsequent to the audit, PSI has acknowledged the errors in reporting of program income for the
USAID purchased commodity (Legal), and is in the process of making corrections. The Mission
will continue its communication with PSI and follow up in writing on or before April 30, 2013.

Recommendation No. 6:
       Implement procedures to verify that implementing partners report program income in
       accordance with their agreements with USAID

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission requires partners to provide details on the amount and use of program income in
their quarterly programmatic narrative, as well as the annual report.

Actions Planned:
The Mission will request refresher training from the Regional Agreement Officer (AO) on the
optimal method for verifying program income and proper interpretation of the SF-425. In
addition, we will work with the AO to add to the AOR checklist of responsibilities that any AOR
who manages a mechanism(s) earning program income will, on a quarterly basis upon receipt of
the SF-425, verify program income based on knowledge of the sales price and through
triangulation with other reported data, and compare results with the Alternate AOR. The Mission
will also draft an official letter to partners about the legal obligation to report program income in
accordance with their agreement and 22 CFR 226.24. All three actions will be completed on or
before April 30, 2013.

Recommendation No. 7:
       Require PSI to differentiate how it expended $9,640 in program income (for different uses,
       including providing incentives for meeting sales targets and holiday gifts), determine the
       allowability of the amounts expended for the different uses, and recover from PSI any
       amount determined to be unallowable




                                                                                                  28
                                                                                      Appendix II


Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission has reviewed a letter sent by PSI, December 17, 2012, that explains PSI’s policy
staff incentives. We have requested and received a copy of this policy to be reviewed internally,
by the Agreement Officer, and by the RLA.

Actions Planned:
The HIV/AIDS Team and the AO will review the PSI policy on staff incentives, and consult with
the RLA, to confirm its compliance with 22 CFR 226.24. Then HIV/AIDS Team will draft an
official response addressing the allowability of program funds used for staff incentives, and
request the recovery of any amount deemed unallowable. This action will take place on or before
April 30, 2013.

Recommendation No. 8:
       Verify that PSI reclassifies $19,656 in program income (that was incorrectly reported under
       the previous social marketing program) as income under the Integrated Health Social
       Marketing Program

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission has received written correspondence from PSI acknowledging the inadvertent
accounting of program income from the current mechanism into the previous project, leading to
underreporting of program income, which they plan to correct.

Actions Planned:
The Mission will follow-up, through written correspondence, requesting verification that the
funds have been reclassified. This action will be completed on or before February 28, 2013.

Recommendation No. 9:
       Require PSI to develop a written plan for using unexpended current and future program
       income to further eligible program objectives

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission has notified the partner that a written plan is required.

Actions Planned:
The Mission will follow-up through official written correspondence, requiring PSI to develop
and send to the Mission a plan for the use of expected current and future program income to
further eligible program objectives. The Mission will also request an Agreement Modification to
include this plan. These actions will be completed on or before February 28, 2013.


                                                                                               29
                                                                                         Appendix II




4.     USAID/Angola did not facilitate program coordination (page 13)

Management Comments: The Mission agrees with this finding and wishes to note, as stated by
the Auditors, that there were insufficient staff at the Mission to facilitate program coordination.
Despite best efforts by the Mission, it is difficult to recruit staff to Angola. Even once recruited,
there are often significant delays due to bureaucratic processes out of the Mission’s control. In
addition, the Mission recently experienced a period where several direct hire staff left post early.
Despite skeletal staffing, the Senior HIV Advisor (arrived in February 2012) did lead partner
coordination activities , including a partner meeting as recent as March/April 2012 to streamline
partner reporting, monitoring and evaluation for PEPFAR. Since then, the Mission has
increasingly maximized opportunities for program coordination, beginning with the creation of
an annual schedule of regular meetings where partners share their work plans and coordinate to
maximize synergy and minimize duplication.

Recommendation No. 10:
       Determine whether PSI managed program income of $358,208 (from sales of Sensual
       condoms) in accordance with 22 CFR 226.24, and recover from PSI any amount that was
       managed incorrectly

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
After a request from the HIV/AIDS Team on the issue, PSI responded with clarifications.

Actions Planned:
The HIV/AIDS Team is working with PSI to make sure that it manages program income
correctly. A plan will be in place on or before April 30, 2013. The HIV/AIDS Team will
follow-up with a formal notice to PSI and will initiate an Agreement Modification, if necessary,
clearly detailing the Mission’s expectation of how program income from this commodity should
be declared and used. This action will also be completed on or before April 30, 2013.

Recommendation No. 11:
       Reach consensus with PSI on how to manage program income generated from future sales
       of Sensual brand condoms, and modify the cooperative agreement accordingly

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
Please refer to actions taken under recommendation 10.

Actions Planned:
The HIV/AIDS Team will request written guidance from the AO and the RLA to help determine
whether PSI’s policy complies with 22 CFR 226.24, and subsequently follow up with a formal


                                                                                                  30
                                                                                        Appendix II


notification to PSI. Depending on the guidance, the HIV/AIDS Team may also request an
agreement modification, detailing the use of program funds from the sale of commodities
promoted but not purchased with USAID funds. These actions are to be completed by June 30,
2013.

Recommendation No. 12:
       Develop a schedule of and hold regular meetings with its HIV/AIDS partners to promote
       strategic coordination

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The HIV/AIDS Team has developed an annual plan for quarterly partner meetings. Partners
were notified of this annual plan verbally in the most recent partner coordination meeting
(February 1, 2013), and this will be reflected in the meeting notes.

The Mission respectfully requests that recommendation No. 12 be closed.


5.   PSI’s advocacy work had not progressed as planned

Management Comments: The Mission agrees with this finding. In fact, due to
underperformance of one PSI project, the Mission requested and conducted a program evaluation
in 2010/2011. This resulted in a remediation plan requiring the partner to address inadequacies.
To their credit, PSI noted programmatic and financial non-compliance by their advocacy Partner,
ADRA, and terminated the agreement. Another partner was identified to implement advocacy
work, and the the HIV/AIDS Team is monitoring PSI’s progress in this area. The Mission plans a
formal assessment of PSI’s progress in March 2013.


6.     Angolans lacked awareness of USAID’s sponsorship (page 16)

Management Comments: The Mission agrees with this finding, and had already begun to
address this issue with partners prior to the audit. Several months before the audit, a partner had
improperly branded its USAID funded activities in a radio broadcast. USAID staff took
immediate action with the Partner, resulting in correct branding and marking in subsequent
airings.

Please note, however, that there are sensitivities in the relationship between the US Government
and the Government of Angola, which complicate branding, and marking. With 2012 being an
election year, the radio stations, all of which are owned by the Government of Angola (GRA),
refused to comply with USAID branding regulations. The GRA wanted to minimize any
perception that the US Government was doing more for its people than it was. Consequently, the
partner was asked to modify the way it branded, and needed to negotiate on the visibility of
USAID. Partners will further be reminded in writing, as necessary, to obtain relevant waivers
that will help navigate sensitivities.


                                                                                                  31
                                                                                      Appendix II




Recommendation No. 13:
       Implement policies and procedures for reviewing and approving branding and marking
       plans and for monitoring the effectiveness of those plans

Management Decision:
The Mission agrees this recommendation.

Actions Taken:
During the implementing partners’ meeting in October 2012, a presentation on branding and
marking was shared with all partners, and an opportunity was provided for each partner to ask
clarifying questions.

Actions Planned:
The Program Office will provide a refresher internal training to AORs and activity managers to
ensure that the regulations for branding and marking are understood. Subsequent to that training,
the Program Office and the HIV/AIDS Team will develop a joint plan for supporting the
implementation, monitoring and reinforcement of USAID branding and marking regulations with
partners and sub-grantees. Included in this plan will be PowerPoint training for partners, as well
as systematic monitoring of the implementation of branding and marking in accordance with
regulations, in a way that maximizes visibility of USAID support during monthly scheduled site
visits. Mission Order 203 will be updated to contain a section on branding and marking
oversight. These two actions will be completed on or before May 31, 2013.

Recommendation No. 14:
       Remind PSI, in writing, of its obligation to brand all program materials (including
       supplementary promotional materials) according to its branding and marking plan,
       exempting only items explicitly identified in the plan from branding and marking
       requirements

Management Decision:
The Mission agrees with this recommendation.

Actions Taken:
The Mission has reviewed the branding and marking plans in both of the PSI agreements, and
noted that both plans are in accordance with USAID branding and marking regulations. The
Mission has reminded the partner of its obligation to brand and mark according to the regulations
verbally and in writing. While not explicitly stated in PSI’s branding and marking plan, it should
be noted that the marking provisions do not apply to the packaging of contraceptives or condoms
under ADS 320.3.2.5 e.

Actions Planned:
The Mission will send an official letter reminding the partner of its branding and marking
obligations. This action will be completed on or before April 30, 2013.




                                                                                                32
                                                                                                        Appendix III


         Results of Selected HIV/AIDS Performance Indicators
Percent of FY 2012 Annual Target Achieved at the End of the Third Quarter
                               Number of pregnant women with known HIV
                              status (includes only women who were tested
                                   for HIV and received their results)*
                                Target 26,442 Result 19,458 Percent 74
 ForçaSaùde




                              Number of health facilities providing antenatal
  Jhpiego




                             care services that provide both HIV testing and
                             antiretroviral drugs for prevention of mother-to-
                                         child transmission on site*
                                     Target 19 Result 16 Percent 84

                                  Number of health-care workers who
                              successfully completed an in-service training
                                               program*
                                   Target 114 Result 67 Percent 59
 Integrated Health Social




                              Number of targeted condom service outlets*
                                 Target 200 Result 122 Percent 61
        Marketing




                                      Number of condoms sold*
           PSI




                            Target 10,000,000 Result 7,822,712 Percent 78


                            Number of individuals from target population who
                                 participated in a mass-scale event
                              Target 500,000 Result 16,200 Percent 3

                             Number of people from most-at-risk populations
                                reached with individual and/or small group
                             interventions that are based on evidence and/or
                                  meet the minimum standards required*
 PROACTIVO




                                  Target 26,250 Result 1,757 Percent 7
    PSI




                                   Number of condoms distributed
                              Target 533,600 Result 229,536 Percent 43

                                  Number of health-care workers who
                              successfully completed an in-service training
                                               program*
                                   Target 80 Result 54 Percent 68

                             Number of people living with HIV/AIDS reached
                                 with a minimum package of [targeted]
                                             interventions.
                                Target 1,950 Result 1,866 Percent 96
 Kapelako Project
 World Learning




                             Number of the targeted population reached with
                               individual and/or small group level preventive
                             interventions that are based on evidence and/or
                                  meet the minimum standards required.
                                  Target 2,500 Result 1,322 Percent 53

                             Number of unique local organizations provided
                               with technical assistance for HIV-related
                                     institutional capacity building.
                                   Target 5 Result 5 Percent 100


                                                                                 0%   25%   50%   75%        100%
*RIG/Pretoria audited third quarter results for selected indicators. The rest, including all Kapelako Project
indicators, are unaudited.


                                                                                                                 33
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue NW 

         Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
